No.

IN THE
SUPREME COURT OF THE UNITED STATES

ARTHUR L. CAMPBELL,
Petitioner,
v.
CYNTHIA CAUSE, ET AL.
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Submitted By:

Arthur L. Campbell, #183620
In Propria Persona
Kinross Correctional Facility
4533 W. Industrial Park Drive
Kincheloe, MI 49788-0001
November 3, 2020

c*

INDEX OF APPENDICES

*

APPENDICES

PAGES

APPENDIX A - Augusts. 13, 2020, Sixth Circuit-Order
denying rehearing en banc .........

l

APPENDIX B - April.24, 2020, Sixth Circuit Order affirming District. Court’s
June 4, 2019 order denying reconsideration .......... .
2-8
APPENDIX C - June 4, 2019, United States District Court Order denying
reconsideration ............................................................. .

9-11

APPENDIX D - Hay 6, 2019, United States District.Court's Order denying.motion
to withdraw fhe stipulated order dismissing, without prejudice.
Claim 8 (violation of First. Amendment. Free Exercise Clause)
and Claim 9 (violation of Religious Land Use and Institutionalise
Persons Act. ("RLUIPA") ................. ............................. .
12-13
APPENDIX E - September 19, 2019, Pro Se Appellant * s Brief in the United States
14-34
Court.of Appeals for the Sixth Circuit
APPENDIX F - Hay 6, 2020, petition for rehearing en banc in the United States
Court of Appeals for.the Sixth Circuit ................... 35-41

ii

t
■i*

FILED

No. 19-1650
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

ARTHUR L. CAMPBELL,
Plaintiff-Appellant,
v.
CYNTHIA GAUSE, ASSISTANT RESIDENT UNIT SUPERVISOR,
ET AL„
Defendants-Appellees.

Aug 13, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: COLE, Chief Judge; GUY and BUSH, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court.* No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

’Judge Griffin recused himself from participation in this ruling.

5-"V

TV.

•

r V-

APPEMboC- APP I'A
jsu>.ww. KKf.J U

(2 of 8)

NOT RECOMMENDED FOR PUBLICATION
No. 19-1650

FILED
Apr 24, 2020
DEBORAH S. HUNT, Clerk

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

)
)
)
)
)
)
)

ARTHUR L. CAMPBELL,
Plaintiff-Appellant,
v.
CYNTHIA GAUSE, Assistant Resident Unit

)

Supervisor, et al.,

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)
)

Defendants-Appellees.

ORDER

Before: COLE, Chief Judge; GUY and BUSH, Circuit Judges.
appeals the order of a
Arthur L. Campbell, a Michigan prisoner proceeding pro se,
denying his post-judgment motion to withdraw a stipulated order dismissing
magistrate judge
This case has been referred to a panel of the court
without prejudice two religion-based claims,
nt is not needed. See Fed. R. App. Pthat, upon examination, unanimously agrees that oral argume
34(a).

Campbell filed a complaint against the following Michigan Department of Corrections

the Mound Correctional Facility. Assistant Resident Unit
(MDOC) officials employed at
Resident Unit Officers Angela Dye, Mark Bragg, and Joslyn Conyers;
Supervisor Cynthia Gause;
Resident Unit Manager Clarence Powell; Warden Raymond Booker; Acting Resident Umt
Manager Alan Greason; Property Room Officer Sandra Doucet
Assistant Deputy Warden of Housing Darrell Steward.
Appeal Respondent Jack Armstrong.

; Captain Tommy Snipes; and

He also sued MDOC Step HI Grievance

Campbell alleged that Dye issued him

minor misconduct

si
- ^ i,
’Vi
Xil

-tv i-niearp, >t A

-p- - y

4 —— "

-f

-J.T, 'll.Tt.i>.-^rr-WtiOTUie.et a —r-P 1 (p

« -

V

ir * -7 ’ f

>f tV

(.

If ^

r

at

.fr

}

tj

- -ri-TrJ APPfiHDW-APp 2“B I

(3 of 8)
No. 19-1650
-2chair rather than in his loclcer. Powell “conceded [that] the
when he hung his wet coat on a
Following a hearing,
but instructed that it be processed anyway,
misconduct was illegitimate”
imposed sanctions.
Campbell s
of
the
misconduct
and
Gause found Campbell guilty
While his Step II appeal was pending,
administrative appeal of Gause’s decision was denied.
ctional Facility to Lakeland Correctional Facility
Campbell was transferred from Mound Corre
” Related to the transfer,
“without his property, hygienic necessities, and prescribed medications.
Campbell alleged drat: (1) Dye and Conyers confiscated Us medications before hrs trans

,

and seal” his personal property “so it could transfer
(2) Dye, Bragg, and Conyers refused to “tag
sent his personal property to the wrong facility when he was
with him”; (3) Doucet and Snipes
d Powell “intentionally damaged’ his
d to Lakeland; (4) Dye, Bragg, Conyers, Gause , an
transferre
, he discovered that some items
personal property; and (5) when he received his personal property
concerning his damaged and
missing, including his religious oils. Campbell’s grievanees
were

“ ""Xrrie defendants retaliated against him for assisfing odrer prisoners
of his own. These grievances included complain s
th protected conduct and filing grievances
wi
ag

ainst Mound’s decision to issue and uphold

a minor misconduct violation based on Campbell’s

transfer of him to Lakeland, and the Facility’s
chair, the Facility s
hanging his wet coat on a
of Campbell’s personal property when sending his property to the wrong
damaging and losing
that defendants conspired to retaliate against him,
correctional facility. Campbell also alleges
Amendment rights by confiscating his prescribed medreatrons before
violated his Eighth
rights by damaging his personal property,
transferring him to Lakeland; violated his due process
d
Relisious
ely exercise his religion under the First Amendment and the Rehgrous
and violated his right to fie
confiscating his religious oils. Based
d Institutionalized Persons Act (RLUIPA) when
Land Use an
injunctive, and monetary relief.
on these claims, Campbell sought declaratory
ary judgment under Federal Rule of Civil
The defendants filed several motions for summ
summary judgment in favor
Procedure 56. A magistrate judge ultimately recommended granting
of dre defendants and dismissing CampbeU’s comp.aint. The district court adopted the mag.strate

Appewput-App 5

(4 of 8)

No. 19-1650
-3-

defendants’ motions for summary judgment,
judge’s reports an d recommendations, granted the
and dismissed Campbell’s complaint.
affirmed to district court's judgment in part, vacated in pa* and remanded the case
We
, No. 14-1374,2014 WL 12886636
district court for further proceedings. Campbell v. Gause
to the
eluded that Campbell waived (1) his request for appellate review
(6th Cir. Dec. 18,2014). We con
gainst Armstrong and Greason; (2) his claims for
of the district court’s dismissal of his claims a
inst all defendants “in their official capacities'", (3) his due process claims based
monetary relief aga
nt that summary judgment was prematurely
on the loss of his personal property; and (4) his argume
his retaliation and conspiracy claims and his Eig
granted in favor of the defendants as to
Id. at *3-5. We concluded
Amendment claim based on the denial of prescription medications.
or of the defendants as to Campbell s Eighth
that summary judgment was properly granted in fav
laim based on the denial of hygiene items. Id. at *6.
Amendment c
the defendants’ final motion for summary
On remand, Campbell filed a response to
motion for summary judgment. In turn, the defendants filed another motion
judgment and a crossOn the recommendation of the magistrate judge
for summary judgment as to the surviving claims
district court denied, without prejudice, Campbell’s crossand over Campbell’s objections, the
mofion for summary judgment. Counsel was appointed to represent Campbell and a respons
the defendants’ summary-judgment motion was filed. The magistrate judge recommended tha

e

defendants' motion be denied. The district court agreed with Campbell's Irmrted ob,ec ,on
clarifying that his RLUIPA claim was neither

addressed in the magistrate judge s report and

district court adopted the magistrate judge s
recommendation nor dismissed. Consequently, the
and denied the defendants’ motion for summary judgment.
report and recommendation
trial before the magistrate judge with the parties’ consent.
The case proceeded to a jury
edto dismiss Campbell's eighth claim, inwhichhe alleged a violation
During trial, the parties agre
The parties also agreed to dismiss
of his First Amendment right to freely exercise his religion.
a violation of the RLUIPA based on the deprivation
Campbell’s ninth claim, in which he alleged
of his religious oils. Thereafter, to magnate judge entered a stipulated order dtsmrssmg tose
claims without prejudice.

1

-*•

-f

4.

7-1

W

At the conclusion of the trial, to jury returned a verdict m favor o

ftcra—r-

4

b

-art- tdpt

Asrt;

V

_ tr

-----------------

*

(5 of 8)
No. 19-1650
-4endment claims against Dye, and his conspiracy claim
Campbell as to his retaliation and Eighth Am
awarded damages to Campbell. The magistrate judge
against Dye and Conyers. The jury also
entered judgment in accordance with the jury verdict.
stipulated order disrmssmg, without prejudice, his eigh* arrd ninth reitgron-baaed clmrns. The
magistrate judge denied Campbell’s motion to withdraw the stipulated order and denied his mo
to reconsider.
misled into stipulating to
This timely appeal followed. Campbell argues that ( ) e “was
ests for declaratory and injunctive relief
the dismissal of’ his two religion-based clauns; (2) his requ
should have been decided by the magistrate judge “after the jury
for his two religion-based claims
e “Defendants^] failure to raise an argument
rendered its verdict against *e
^ions ^
constimtes
“an
against” his two religion-based claims
“his rights under the First Amendment
admission of the facts alleged”; and (4) the MDOC violated
religious oils. He has
free exercise clause trnd the [RLUffA]” by prohibiting him from possessmg
and desist its policy and practice against
motion “to compel die MDOC to cease
also filed a
copying transcripts for prisoners.

tion for an abuse of discretion. Holden v. Atos
We review the denial of a post-judgment mo
, 2018 WL 2972436, at *1 (6th Cir. Apr. 20, 2018) ; Hunt v.
IT Sols. & Servs., Inc., No. 17-3611
. “A court abuses its discretion when it commits
Michigan, 92 F. App’x 300, .302 (6th Cir. 2004)
applying the incorrect legal standard, misapplying the correc
a clear error of judgment, such as
roneous findings of fact.” United States v. Hammons, 411
legal standard, or relying upon clearly er
R APP X ^magistrate judge^mncluded that Campbeifs pos,-judgment motion to wMtdraw the
The

was untimely, moot, unsupported by any
dismissing the two religion-based claims
an identifiable benefit to Ctunpbell. The magistrate judge pointed out that
legal basis, and lacked
religion-based claims from the jury,” rendering
“the stipulated order removed these two
The magistrate judge also
to withdraw the order both untimely and moot
Campbell’s motion
religion-based claims “without prejudice,
hasized that the stipulated order dismissed the two
emp

stipulated order

X.

hr- V +■>«*,£t•**, T.V'Hwf*

ApPehdix-AP? S-B

(6 of 8)
No. 19-1650

-5When denying Campbell’s
withdraw the order unnecessary.
rejected Campbell’s contention that he was “led
motion for reconsideration, the magistrate judge
after trial, noting that the defendants lacked an
to believe that” he could withdraw the stipulation
eligion-based claims, disputed factual issues
as
to
the
two
r
opportunity to present evidence
nor the jury considered those claims.
d as to those claims, and neither the magistrate judge
remaine
presented by counsel when the stipulation
magistrate judge also noted that Campbell “was re
The
• j
that “there has been no decision on the merits” as to
was entered.” The magistrate judge stressed that there has
d that Campbell's “remedy, if any, is to file a new action, subject
the two religion-based claims an
defenses that may be available to the Defendants.”
to any affirmative
discretion when he denied Campbell's motion to
The magistrate judge did not abuse his
considered
withdrawthe stipulated order of dismissal. The two religion-based claims were never
, and the jury had rendered a verdict as to
by the jury because of the stipulated order of dismissal
withdraw the stipulated order was filed.
the remaining claims, when Campbell’s motion to
Campbell did not cite any rule or other authority in support of his motion to withdraw the stipulat

rendering Campbell’s motion to

order post-jud^nent, and he <hd no, explain how wifedrawal of fee stipulated order could bene t
Because fee stipulated dismissal of fee two religion-based claims was wrfeout prejud.ce,
him.
those claims in another civil action.
misled into stipulating to the dismissal” of the two religionCampbell argues that he “was
advice of counsel. He
based claims and reluctimtly agreed to fee stipulation based on erroneous
could not order the MDOC
argues feat counsel erroneously advised him that fee magistrate judge
tolw-him to possess religious oils, which led him to believe that he could “wrthdraw the

Campbell may pursue

favorable jury verdict. He also
and injunctive relief’ after a
“all of the religious-based facts were offered
argues that, contrary to the magistrate judge's finding,
to dismiss Claim 8 and 9
into evidence during trial.” Therefore, he argues that “it makes no sense
because the MDOC was no, a defendant” given fea, fee magistrate judge could order fee MDOC

stipulation and obtain declaratory

“by way of an official-capacity suit agamst MDOC officials,
to allow him to possess religious oils
pointing to his official-capacity claims agamst Booker.

A'F’PENPlX-APP 6-8

Agfgftyj!

MM

— -....... - -....t-..... -

-

•SI--------- —-----------

... wawwiiMaTTTiryini"iiiiiiin> WiiMliPiNiTTHim

(7 of 8)

Campbell has n

No. 19-1650
-6ot shown that ho agreed to the stipulation of dismissal because of erroneous

advice from counsel, the stipulated
advice of counsel. And, even if Campbell received erroneous
sed claims without prejudice, which allows him to pursue those
order withdrew the two religion-ba
Cairns against fte MDOC or any otirer proper defendants m anodrer civil action. Although facts
supporting Campbell’s re

ligion-based claims may have been presented prior to the stipulated order

an opportunity to present facts or evidence
dismissing those claims, the defendants did not have
regarding those clauns after entry of ft. stipulated order. Thus,, the magistrate judge comedy
Furthermore, even though Booker was sued
noted that disputed facts remain as to those clauns
m his individual and official edacities, Campbell’s claims for declaratory and injunctive rehef are
moot because Booker is not the warden

of the facility where Campbell is currently incarcerated.

See Kensu v. Haigh, 87 F.3d 172,175 (6th Cir. 1996).
gistrate judge should have ruled on his two religion-based
Campbell also argues that the ma
relief after the jury verdict; that the defendants admitted
claims seeking declaratory and injunctive
iddress those claims in their
tire facts supporting his two religion-based claims when they did not
motions for summary judgment; and that MDOC policies which prohibit him from possessmg
reiigious oils violate •'his rights under the Firs, Amendment ftee exercise clause and tire
[RLUIPA].”

was not required to rule on the
Contrary to Campbell’s contention, the magistrate judge
were withdrawn by the
two religion-based claims after the jury verdict because those claims
The defendants’ failure to address the two religion-based clauns m
stipulated order of dismissal,
ent did not amount to an admission of the facts supporting them,
their motions for summary judgm
ling on the merits of those claims by either the magistrate judge
and, in any event, there was no ru
withdrawn from consideration per the stipulated order of
or the jury because those claims were
the merits of Campbell’s two religion-based
dismissal. The magistrate judge did not address
oils because of the dismissal of those claims
claims related to the deprivation of his religious
without prejudice by the stipulated order. Unless an injustice would occur, issues that were not
district court level will not be addressed on appeal. Maldonado v. Natl Acme Co.,
ruled on at the

(8 of 8)

No. 19-1650
-7-

73 F.3d 642, 648 (6th Cir. 1996). No injustice will occur if the merits of Campbell’s two religionbased claims are not considered.
Next, we consider Campbell’s motion “to compel the MDOC to cease and desist its policy
and practice against copying transcripts for prisoners.” The magistrate judge did not refer to any
transcripts when addressing Campbell’s motion to withdraw the stipulated order and we may not
consider any transcripts either. We review “the case presented to the district court rather than a
better case fashioned after the district court’s order.” White v. Anchor Motor Freight, Inc., 899
F.2d 555, 559 (6th Cir. 1990) (quoting Adams v. James, 784 F.2d 1077, 1080 (11th Cir. 1986)).
In any event, Campbell has not shown that a transcript is necessary to resolve this appeal.
Accordingly, we DENY the motion to compel and AFFIRM the magistrate judge’s order.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

^ .APPEMPix-APP 8-0
•■waswjtJk r

„

t it

»

-V w
* .i.r

.** m

h-.«

a
l

Case 2:10-cv-11371-RSW ECF No. 190 filed 06/04/19

PagelD.1805

Page lot 3

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

ARTHUR CAMPBELL, et al.,
Plaintiff,
-v-

Civil No. 10-11371
District Judge John Corbett O’Meara
Magistrate Judge R. Steven Whalen

CYNTHIA GAUSE, et al.,
Defendants.

ORDER
Plaintiff Arthur L. Campbell has filed a motion for reconsideration [Doc. #189] of my
order [Doc. #187] denying his motion to “withdraw” a stipulated order dismissing without prejudice
claim 8 (alleged violation of First Amendment Free Exercise Clause) and claim 9 (alleged
violation of Religious Land Use and Institutionalized Persons Act) of his complaint.
Motions for reconsideration are subject to E.D. Mich. L.R. 7.1(g)(3), which provides:
“(3) Grounds. Generally, and without restricting the court’s discretion, the
court will not grant motions for rehearing or reconsideration that merely
present the same issues ruled upon by the court, either expressly or by
reasonable implication. The movant must not only demonstrate a palpable
defect by which the court and the parties have been misled but also show that
correcting the defect will result in a different disposition of the case.”
In the present motion, Plaintiff argues that the order in question was based on a “palpable
error” by which the court and the parties were misled. Not so.
Plaintiff contends that when he agreed to a dismissal of these two claims without prejudice,
-1-

gp

APPetffciX-A’PP 9~lj

Case 2:10-cv-11371-RSW ECF No. 190 filed 06/04/19

PagelD.1806

rv

Page 2 of 3

he was “led to believe that he would be able to ‘withdraw’ the stipulation and obtain declaratory and
injunctive relief after the jury returned its favorable verdict.” Motion, 114. This makes no sense.
When the claims were withdrawn, the religion-based issues were removed from consideration, and
the parties-particularly the Defendants-were relieved of the obligation to present evidence

is

supporting or refuting those claims. Thus, issues of fact remain as to both the First Amendment free
exercise claim1 and the RLUIPA claim.2 That is why summary judgment was not granted on these
claims. But that does not mean that the Court must now rule on withdrawn claims where there are
disputed issues of fact, notwithstanding Plaintiffs post hoc assertion that he was led to believe
otherwise. I note that Plaintiff was represented by counsel when the stipulation was entered.
The claims were withdrawn without prejudice, meaning there has been no decision on the
merits. Plaintiff s remedy, if any, is to file a new action, subject to any affirmative defenses that may
be available to the Defendants. Plaintiff has not shown any palpable defects underlying the Court’s
order denying his motion to withdraw his stipulation.

1 E.g., did Plaintiff have a sincerely held religious belief supporting his need for
the oils; was the seizure of the oils reasonably related to a legitimate governmental
interest. See O’Lone v. Estate ofShabazz, 482 U.S. 342 (1987).
2 E.g., was the Plaintiffs possession of the oils grounded in a sincerely held
religious belief, see Burwell v. Hobby Lobby Stores, Inc., 134 S.Ct. 2751, 2774, n. 28
(2014); did the seizure of Plaintiff s oils impose a “substantial burden” on a religious
exercise; was it justified by a compelling governmental interest; was it the least restrictive
means of furthering that interest. See 42 U.S.C. § 2000c-l(a); Civil Liberties for Urban
Believers v. City of Chicago, 342 F.3d 752 (7th Cir. 2003), cert, denied, 541 U.S. 1096
(2004).
-2-

APPfMDiX'APP |0-C

iiL

^

*

Case 2:10-cv-11371-RSW ECF No. 190 filed 06/04/19

PagelD.1807

Page 3 of 3

n

Accordingly, Plaintiffs motion for reconsideration [Doc. #189] is DENIED.
IT IS SO ORDERED.

Dated: June 4, 2019

s/R. Steven Whalen
R. STEVEN WHALEN
UNITED STATES MAGISTRATE JUDGE

CERTIFICATE OF SERVICE
I hereby certify on June 4,2019 that I electronically filed the foregoing paper with the
Clerk of the Court sending notification of such filing to all counsel registered electronically.
I hereby certify that a copy of this paper was mailed to non-registered ECF participants on
June 4, 2019.
s/Carolyn M. Ciesla
Case Manager for the
Honorable R. Steven Whalen

-3-

APPEND iX -ARP \ \
C

>:

Case 2:10-cv-11371-RSW ECF No. 187 filed 05/06/19

PagelD.1791

Page 1 of 2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

ARTHUR CAMPBELL, et al,
Plaintiff,
-v-

Civil No. 10-11371
Magistrate Judge R. Steven Whalen

CYNTHIA GAUSE, et al.,
Defendants.

ORDER
This prisoner civil rights case, brought under 42 U.S.C. § 1983, was tried to a jury
between October 10, 2017 and October 17, 2017, when the jury returned a verdict in favor
of the Plaintiff as to certain counts. Judgment was entered on November 9, 2017.
Prior to trial, the parties stipulated to the dismissal without prejudice of Plaintiffs
claim 8 (alleged violation of First Amendment Free Exercise Clause) and claim 9 (alleged
violation of Religious Land Use and Institutionalized Persons Act) [Doc. #171], Plaintiffhas
filed a post-judgment motion to “withdraw” that stipulated order [Doc. #181].
First, by agreement of the parties, the stipulated order removed these two religionbased claims from the jury. Having been brought after the jury returned a verdict, the motion
is not only untimely, but it is moot. Plaintiff has offered no legal basis for this Court to set
aside a properly entered stipulated order after judgment is entered. Secondly, the two claims

-1-

APPEKiD1X“Ai>P \Z
P

13
Case 2:10-cv-11371-RSW ECF No. 187 filed 05/06/19

PagelD.1792

Page 2 of 2

were dismissed without prejudice, so it is unclear what benefit would accrue to the Plaintiff
by permitting him to “withdraw” his stipulation at this late date.
Accordingly, Plaintiffs motion [Doc. #181] is DENIED.
IT IS SO ORDERED.

s/ R. Steven Whalen
R. STEVEN WHALEN
UNITED STATES MAGISTRATE JUDGE
Dated: May 6, 2019

CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing document was sent to parties of record
on May 6, 2019, electronically and/or by U.S. mail.
s/Carolyn M. Ciesla
Case Manager to the
Honorable R. Steven Whalen

-2-

APPEHDiK-APP 13
D

i

Case 2:10-cv-11371-RSW ECF No. 188, PagelD.1793 Filed 05/06/19 Page 1 of 5

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

ARTHUR CAMPBELL,

10-11371

Plaintiff,
v.

Magistrate Judge R. Steven Whalen

CYNTHIA GAUSE, ET AL.,
Defendants.
/

OPINION AND ORDER RE: ATTORNEY FEES
This prisoner civil rights case, brought under 42 U.S.C. § 1983, was tried to a jury
between October 10, 2017 and October 17, 2017. The jury awarded Plaintiff a total of
$11,500.00 against Defendants Dye and Conners, which included $2,500.00 against
Conners on Plaintiffs conspiracy claim, jointly and severally with Dye.
Plaintiff now brings a motion for attorney fees and costs under 42 U.S.C. § 1988
[Doc. #177],
42 U.S.C. 1988 provides, in pertinent part, that “[i]n any action or proceeding to
enforce a provision of section[] 1983...of this title,...the court, in its discretion, may allow
the prevailing party, other than the United States, a reasonable attorney's fee as part of the
costs....” Attorney fees awarded under this section must be reasonable.
First, Plaintiff is a prevailing party for purposes of sec. 1988, notwithstanding that

-1-

Case 2:10-cv-11371-RSW ECF No. 188, PagelD.1794 Filed 05/06/19 Page 2 of 5

he only prevailed on some of his claims against some of the Defendants. Prevailing party
status “is not determined simply by which party was victorious on the majority of claims.”
Watkins v. County of Genesee, 2017 WO 1077068, *5 (E.D. Mich. 2017), citing Woods v.
Willis, 631 Fed.App’x 359, 364 (6th Cir. 2015). In Berger v. City ofMayfield Heights,
265 F.3d 399, 406 (6th cir. 2001), the plaintiff was found to be a prevailing party where
twelve of his fourteen claims had been dismissed. A plaintiff prevails within the meaning
of sec. 1988 “when actual relief on the merits of his claim materially alters the legal
relationship between the parties by modifying the defendant’s behavior in a way that
directly benefits the plaintiff.” Lefeminev. Wideman, 133 S.Ct. 9, 11 (2015). See also
Thurman v. Yellow Freight Systems, Inc., 90 F.3d 1160, 1169 (6th Cir.l996)(“[A] court
should not reduce attorney fees based on a simple ratio of successful claims to claims
raised.”). Here, the jury awarded Plaintiff $ 11,500, an amount certainly sufficient to
constitute relief on the merits in a way that directly benefits him. See Watkins, where the
plaintiff was awarded $10,002.00.
Under the Prison Litigation Reform Act (“PLRA”), there are certain limits on
attorney fees in prisoner civil rights cases. The total amount is capped at no more than
150% of the amount of the judgment and further limits the claimed hourly rate to 150% of
the hourly rate established under the Criminal Justice Act (“CJA”), 18 U.S.C. § 3006A,
for payment of court-appointed counsel. 42 U.S.C. § 1997e(d) (2)-(3). Thus, the total

-2-

Case 2:10-cv-11371-RSW ECF No. 188, PagelD.1795 Filed 05/06/19 Page 3 of 5

permissible fee award in this case is $17,250.00, at a rate of $198.00 per hour.
Under that formulation, an attorney would meet the PLRA fee cap in 87.12 hours.
Apart from pretrial motions and status conferences, trial in this case went over a period of
five days. Factoring in trial preparation, even a single attorney would significantly
exceed 87 hours in a trial of this length. Accordingly, I find a request for $17,250.00 in
attorney fees reasonable, notwithstanding that Plaintiff was represented by four attorneys
from Dykema Gossett PLLC.2
Section 1997e(d)(2) of the PLRA also allows for a portion of the plaintiffs
judgment, not exceeding 25%, to be applied to satisfy the payment of attorney's fees.
Defendants ask that the full 25% be used. In Kahle v. Leonard, 563 F.3d 736, 743 (8th
Cir. 2009), the Eighth Circuit identified four factors to consider in deciding what portion
of an award in a prisoner civil rights case should be applied to attorney fees:
“(1) the degree of the opposing parties' culpability or bad faith, (2) the
ability of the opposing parties to satisfy an award of attorneys' fees, (3)
whether an award of attorneys' fees against the opposing parties could deter
other persons acting under similar circumstances, and (4) the relative merits
of the parties' positions.”
See also Tanner v. Borthwell, 2013 WL 1148411, at *1-2 (E.D. Mich. Mar. 19,
2013)(applying the Kahle standards). In Tanner, as in the present case, the jury awarded
punitive damages. Tanner found this to be a significant fact in favor of applying only one
1 The CJA rate at the time of trial was $132.00 per hour.
2 Defendants were also represented by three attorneys from the Michigan Attorney
General’s Office.
-3-

Case 2:10-cv-11371-RSW ECF No. 188, PagelD.1796 Filed 05/06/19 Page 4 of 5

dollar of the judgment to attorney fees:
“An award of punitive damages against both defendants shows that the jury
intended to deter other persons acting under similar circumstances. Seven
thousand dollars is not a small punitive damage award, particularly in a
prisoner civil rights case. Courts have recognized that ‘[rjare is the prisoner
who succeeds in winning a case at all, much less winning more than
nominal damages.’ Farella v. Hockaday, 304 F.Supp.2d 1076, 1081
(C.D.I11. 2004). Therefore, the court will assign only one dollar, a nominal
portion of Plaintiff s judgment, to satisfy the award of attorneys' fees.”
The determination of the amount of an award to be applied to attorney fees is
addressed to the Court’s discretion. Kahle, at 743. Here, the jury awarded a total of
$10,000 in punitive damages. In Tanner, the punitive damage award was $7,000. For the
same reasons the Court discussed in Tanner, I find it appropriate to assign one dollar, “a
nominal portion of Plaintiff s judgment,” to the award of attorney fees.
Accordingly, the Court awards Plaintiff attorney fees in the amount of $17,250.00,
with one dollar to be paid out of Plaintiffs judgment of $ 11,500.00.
In Tanner, at *2, the Court declined to award pre-judgment interest:
“The Sixth Circuit Court of Appeals has held that the decision to award
prejudgment interest in Section 1983 cases is within the discretion of the
trial court. EEOC v. Wooster Brush Co. Employees Relief Ass'n, 727 F.2d
566, 579 (6th Cir.1984). Plaintiff Tanner seeks interest from October 26,
2007, when she filed her complaint, to March 27, 2012, when judgment was
entered. However, unlike in an employment discrimination case such as
Wooster, Defendants did not deprive Tanner of money she would have
otherwise had in the absence of their conduct. Therefore, the court will deny
the request for prejudgment interest.”
Likewise in this case, I will deny Plaintiffs request for pre-judgment interest.
Finally, Plaintiff claims $1,075.28 is costs. I have reviewed counsel’s Bill of
-4-

Case 2:10-cv-11371-RSW ECF No. 188, PagelD.1797 Filed 05/06/19 Page 5 of 5

Costs, and find all claims allowable and reasonable. The request for costs will therefore
be granted.
Accordingly,
Plaintiffs Motion for Attorney Fees and Costs [Doc. #177] is GRANTED IN
PART AND DENIED IN PART, as follows:
Attorney fees are awarded in the amount of $17,250.00, with one dollar to be paid
out of Plaintiff s judgment of $11,500.00.
Costs are awarded in the amount of $1,075.28.
Plaintiffs request for pre-judgment interest is DENIED.
IT IS SO ORDERED.
Dated: May 6, 2019

s/R. Steven Whalen
R. STEVEN WHALEN
UNITED STATES MAGISTRATE JUDGE

CERTIFICATE OF SERVICE
I hereby certify on May 6,2019 that I electronically filed the foregoing paper with the
Clerk of the Court sending notification of such filing to all counsel registered electronically.
I hereby certify that a copy of this paper was mailed to non-registered ECF participants on
May 6, 2019.
s/Carolyn M. Ciesla
Case Manager for the
Honorable R. Steven Whalen

-5-

Additional material
from this filing is
available in the
Clerk's Office.

